    DEPARTMENT OF HEALTH & HUMAN SERVICES                                                       Office of Inspector General



                                                                                                Washington , D.C. 20201


                                     JUN 2 92011 

Congressional Letter - Status ofMandated Review ofthe Competitive Bidding Program

The following letter provides initial information about a statutorily mandated Office of
Inspector General review of the competitive bidding program. Identical letters were
issued to the Chairman and Ranking Member ofappropriate Congressional committees.



This letter provides initial information about the Office of Inspector General (OIG)
review of the durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS)
competitive bidding program. The Medicare Prescription Drug Improvement and
Modernization Act of 2003 (MMA) directed OIG to study the extent to which suppliers
ofDMEPOS items covered under the program solicit physicians to prescribe certain
brands or modes of delivery of covered items based on profitability and to issue a report
about the study by July 1, 2011.1

As you know, the program became operational in January 2011. Because of the short
timeframe between program implementation and the due date, I informed the committees
of jurisdiction in a letter dated June 30, 2010, that by July 1, 2011, OIG would issue an
initial report describing our work to date and plans for completing the study. This letter
serves as that initial report.

To date, OIG has undertaken several activities to address the issues identified in the
mandate. We conducted multiple interviews with Centers for Medicare & Medicaid
Services (CMS) staff and its contractors involved with the program. We then analyzed
Medicare claims submitted for 2010 for covered products in the nine competitive bidding
areas (CBA). We also interviewed numerous physicians in each of the nine CBAs who
were most frequently indicated on 2010 Medicare claims as the prescribing physicians for
DMEPOS items now covered under the program. 2

BACKGROUND

The Competitive Bidding Program Began in Nine Areas in January 2011
Before the program began on January 1,2011, suppliers competed to become Medicare
contract suppliers for selected DMEPOS items within nine specific geographic areas. 3




I Section 302(e) of the MMA, as amended by § I 54(c)(2)(C) of the Medicare Improvements for Patients
and Providers Act of2008 (MIPPA). 

2 Although provisions in the MMA required that the initial phase of the competitive bidding program cover 

10 CBAs, provisions in the MIPPA changed the requirement to 9 CBAs. See 42 U.S.C. 1395w-3(a)(1)(D). 

3 The competitive bidding statutory provisions require CMS to expand the program to an additional 70 

metropolitan areas in the next phase of implementation. The expansion timetable has not been finalized. 

Page 2


Each CBA includes ZIP Codes surrounding the associated metropolitan area. The nine
CBAs are:

    •    Charlotte, Gastonia, Concord (North Carolina and South Carolina);
    •    Cincinnati, Middletown (Indiana, Ohio, and Kentucky);
    •    Cleveland, Elyria, Mentor (Ohio);
    •    Dallas, Fort Worth, Arlington (Texas);
    •    Kansas City (Kansas and Missouri);
    •    Miami, Fort Lauderdale, Pompano Beach (Florida);
    •    Orlando, Kissimmee (Florida);
    •    Pittsburgh (Pennsylvania); and
    •    Riverside, San Bernardino, Ontario (California). 4

CMS evaluated eligible suppliers’ bids based on several criteria, including the bidders’
financial stability, estimated capacity to provide DMEPOS products, and bid amounts. 5
CMS announced the winning bidders in November 2010 and awarded contracts to the
suppliers that offered lower prices and met the program’s quality and financial
standards. 6

These contractors then became the primary suppliers authorized to provide covered
DMEPOS items to Medicare beneficiaries in each CBA. The program substantially
reduced the number of DMEPOS suppliers authorized to provide covered items to
beneficiaries in each of the nine CBAs. Suppliers not awarded contracts by CMS, known
as noncontract suppliers, may continue to receive payment for providing covered items
only in certain circumstances. 7 Additionally, noncontract suppliers may be grandfathered
to continue providing a small number of covered rental items for existing customers. 8
Noncontract suppliers may continue to provide beneficiaries with DMEPOS items and
services not included in the program.




4
  CMS, Facts About the DMEPOS Competitive Bidding Program Round 1 Rebid Competitive Bidding
Areas (CBAs). Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Competitive_Bidding_Areas.pdf/$
FIle/Fact_Sheet_Competitive_Bidding_Areas.pdf on June 10, 2011.
5
  CMS, DMEPOS Bid System (DBidS) Application: Getting Started. Accessed at
http://www.dmecompetitivebid.com/cbic/cbicrd1.nsf/files/DBidS_Getting_Started_Checklist.pdf/$FIle/DB
idS_Getting_Started_Checklist.pdf, on June 10, 2011. See also 42 CFR § 414.414 and Social Security Act
(SSA) § 1847(b)(2).
6
  CMS, Contract Suppliers Selected Under New Medicare Program. Accessed at
http://www.cms.gov/apps/media/press/release.asp?Counter=3861 on March 11, 2011.
7
  SSA, § 1847(a)(7); 42 U.S.C. § 1395w-3; and the Medicare Claims Processing Manual, Pub. 100-04,
ch. 36, § 20.6.
8
  SSA, § 1874(a)(4); Medicare Claims Processing Manual, Pub. 100-04, ch. 36, § 20.6; CMS, Exemptions
to the Requirement to Be a Contract Supplier for Furnishing Competitive Bidding Items and Services Fact
Sheet. Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Exemptions.pdf/$FIle/Fact_Sheet_
Exemptions.pdf on June 6, 2011.
Page 3


The Competitive Bidding Program Reduces Medicare Payments
Using the bids submitted by suppliers, CMS set a single payment amount for each
DMEPOS item in each CBA. This single payment amount replaced the prior Medicare
fee schedule amount. 9 CMS stated that the new methodology is intended to “reduce
beneficiary out-of-pocket expenses and save the Medicare program money while
ensuring beneficiary access to quality DMEPOS items and services from qualified
suppliers.” 10 CMS estimated that these new, lower payment amounts would result in an
average cost savings of 32 percent for the covered products across the nine CBAs when
compared to the 2009 fee schedule payment amounts. 11

The DMEPOS items included in the program are generally high-cost and/or high-volume
products. 12 There are 253 individual products grouped into the following 9 product
categories, with each product category consisting of multiple related items:

     •   oxygen, oxygen equipment, and supplies;
     •   standard power wheelchairs, scooters, and related accessories;
     •   complex rehabilitative power wheelchairs and related accessories;
     •   mail-order diabetic supplies;
     •   enteral nutrients, equipment, and supplies;
     •   continuous positive airway pressure devices and respiratory assist devices and
         related supplies and accessories;
     •   hospital beds and related accessories;
     •   walkers and related accessories; and
     •   support surfaces (Group 2 mattresses and overlays in the Miami CBA only). 13

Physicians May Prescribe Specific Brands and Modes of Delivery
In general, DMEPOS suppliers are not required to provide a specific brand or mode of
delivery for a product when they fill a prescription for a DMEPOS item. 14 For example,
if a physician prescribes diabetic test strips for measuring a beneficiary’s blood glucose
level, the supplier has discretion to provide any brand of test strips. However, the MMA
established a special provision, known as the physician authorization process, to ensure
that beneficiaries have access to specific brands or modes of delivery of covered items

9
  SSA, § 1847(b)(5); Medicare Claims Processing Manual, ch. 36, § 40.1.
10
   Medicare Claims Processing Manual, ch. 36, § 10.
11
   CMS, DMEPOS Competitive Bidding – Round 1 Rebid – Weighted Average Savings. Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Weighted_Average_Savings.pdf/$FIle/Weight
ed_Average_Savings.pdf on June 10, 2011.
12
   CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical
Equipment, Prosthetics, Orthotics, and Supplies. Accessed at
https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/DMEPOSRegSumm.pdf on June 10, 2011.
See also 72 Fed. Reg. 17992, 18021 (Apr. 10, 2007).
13
   CMS, DMEPOS Competitive Bidding–Round 1 Rebid Product Categories and HCPCS Codes, Accessed
at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/HCPCS_Codes.pdf/$FIle/HCPCS_Codes.pdf
on June 10, 2011. Group 2 support surfaces include powered pressure-reducing mattress overlays and
replacement mattresses.
14
   SSA, § 1847(a)(5); Medicare Claims Processing Manual, ch. 36, § 30.4.
Page 4


when a physician determines that they are needed to avoid an adverse medical outcome. 15
Under this process, when a physician prescribes a specific brand or mode of delivery, the
contract supplier must furnish the item as prescribed, consult with the physician to find
an appropriate alternative brand or mode of delivery, or assist the beneficiary in finding a
contract supplier that can furnish the prescribed brand or mode of delivery. 16

Suppliers May Have Incentives To Limit Brands and Modes of Delivery
The physician authorization process may create an incentive for suppliers to solicit
physicians to change their prescriptions to maximize profitability, irrespective of the
patients’ needs. This could occur, for example, if suppliers cut their costs by stocking a
limited number of brands for items covered under the competitive bidding program.
When a physician prescribes a specific brand that a supplier does not stock, the supplier
might have to incur additional costs or pass the business to another supplier to ensure that
the beneficiary receives the item as prescribed. This provides a financial incentive for
suppliers to persuade physicians to change their prescriptions. The supplier is not
allowed to ignore the prescription or compel the physician to change the prescribed brand
or mode of delivery, but may consult with the physician or use the physician
authorization process described above.

PROGRESS TO DATE AND PLANS FOR FINAL REPORT

OIG Is Using Data Analysis and Physician Interviews To Address the Mandate
Before beginning this study, we reviewed all statutes, regulations, and other material
relevant to the rules, history, and operations of the competitive bidding program.
Additionally, we conducted multiple interviews with CMS staff and contractors,
including the competitive bidding implementation contractor and the pricing, data
analysis, and coding contractor, to gather additional insight about vulnerabilities related
to brands and modes of delivery.

Medicare Claims Analysis. We analyzed 2010 Medicare DMEPOS claims to better
understand the claims data. We calculated the volume and dollar amounts of claims for
all DMEPOS items now covered under the program and identified physicians in the nine
CBAs who frequently prescribed these products. As more 2011 Medicare claims data
become available, we will compare them to the 2010 claims data to identify changes in
beneficiary utilization of covered items under the program, calculate the volume of
payments for the covered items, and identify any potentially problematic shifts in
Medicare billing. We will include this analysis in the final report.

Physician Interviews. Because Medicare claims do not record brand information and
contain only limited information about mode of delivery, we conducted additional data
collection regarding supplier solicitation of physicians. We began by conducting
structured prestudy interviews with numerous physicians who prescribed the largest
dollar amount of covered DMEPOS items in each CBA. As more 2011 claims become
available, we will select a larger representative sample of physicians in each CBA to
15
     MMA, P.L. 108-173, § 302(b)(1).
16
     Medicare Claims Processing Manual, Pub. 100-04, ch. 36, § 30.4.
Page 5


survey about their experiences since the program began in January 2011. For our final
report, we will determine to what extent physicians prescribe specific brands or modes of
delivery for covered DMEPOS items; whether suppliers have solicited them regarding
brand or mode of delivery; and if so, under what circumstances.

Our final report will include our analysis of both Medicare claims and physician
responses to our survey. We will continue to meet with CMS officials about the program
and our report findings.


                                            Sincerely,

                                              /S/

                                            Daniel R. Levinson
                                            Inspector General
